October 22, 2008

TIMOTHY C. HANEY
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 Northeast Area SmartPay Purchase Card
         Program (Report Number FF-AR-09-001)

This report presents the results of our audit of SmartPay Credit Card purchases by
personnel in the Northeast Area Office (Project Number 08BD006FF008). This audit is
part of the Fiscal Year 2008 Financial Installation Audits we announced on August 14,
2007. See Appendix A for additional information about this audit.

Conclusion

Generally, cardholders supported their SmartPay purchases and complied with U.S.
Postal Service policies and procedures. We examined all 599 transactions that
occurred between July 1, 2007, and June 30, 2008 (totaling $332,174), and found
issues with 28 purchases (5 percent) totaling $49,744. We identified 27 meal expenses
without either proper authorization or sufficient justification included in the purchase
request and one transaction that exceeded $10,000. Additionally, we examined
reconciliations for 92 purchase card statements and determined that cardholders and a
credit card approving official (CCAO) did not properly review and reconcile 24
(26 percent) of them, worth $90,333. We identified a monetary impact of $36,263 for
unrecoverable unsupported questioned costs1 and a non-monetary impact of
$13,481 for disbursements at risk.2 We will report the monetary and non-monetary
impacts in our Semiannual Report to Congress. See Appendix B for the details of our
monetary and non-monetary impacts.

Procedures for Meal Purchases Need Improvement

Three cardholders made 27 meal purchases totaling $36,263 without either obtaining
Postal Career Executive Service (PCES) executive approval or documenting a business
need for providing meals after organizers adjourned meetings. Officers and PCES
executives should authorize Postal Service funds to purchase and pay for working
meals. Additionally, all purchase requests for working meals must clearly indicate the

1
  Unsupported costs are costs that we question because of missing or incomplete documentation or personnel not
following required procedures.
2
  The dollar value of disbursements made when employees did not always follow Postal Service internal controls and
processes.
Fiscal Year 2008 Northeast Area SmartPay                                             FF-AR-09-001
 Purchase Card Program


benefit to the Postal Service.3 Cardholders stated they were either unaware of all
requirements or neglected to obtain approval. When employees do not make
purchases in accordance with procurement policies, the Postal Service has an
increased risk of incurring unauthorized purchases or unnecessary expenses.

We recommend the Vice President, Northeast Area Operations:

1. Reiterate to cardholders the requirement to document a business need for providing
   meals when submitting a purchase request and to obtain Postal Career Executive
   Service approval on all meal expenditures.

Monthly Reconciliation Procedures Need Improvement

Cardholders and CCAOs did not always follow monthly reconciliation procedures.
Specifically, in our review of 92 purchase card bank statements:

    •   One cardholder did not sign or date five of six bank statements totaling $1,880.

    •   One CCAO did not sign and date 19 of 86 bank statements, totaling $88,453,
        within 30 days from the statement date.4 Additionally, eight cardholders did not
        date 17 of those 19 statements.

Cardholders and CCAOs must certify the statement of account after review and
reconciliation by signing and dating the certification statement.5 The policy also
requires cardholders and CCAOs to complete all reconciliation activities no later than
the 18th of the month for the previous month’s card activity.6 Cardholders did not date
the bank statements because they were unaware of the policy related to modified bank
statements.7 The CCAO did not reconcile the bank statements in a timely manner due
to the late receipt of cardholder documentation. When cardholders and approving
officials do not reconcile bank statements, unauthorized or inaccurate transactions
could occur and not be detected.

We recommend the Vice President, Northeast Area Operations:

2. Inform cardholders and approving officials of the requirement to sign, date, and
   reconcile bank statements by the 18th of each month.



3
  Management Instruction FM-640-2001-4, Payment for Meals and Refreshments, page 2, September 24, 2001.
4
  The approving official certified the statements in 60 days; therefore, we do not consider the amounts as
disbursements at risk.
5
  Handbook AS 709, Credit Card Policies and Procedures for Local Buying, Chapter 4, October 2003 (updated
through October 26, 2006).
6
  Officer Memorandum of Policy, GSA SmartPay Purchase Card Reconciliation Process Cycle Time Change,
January 4, 2008.
7
  The modified bank statements did not have a date section for cardholders.




                                                       2
Fiscal Year 2008 Northeast Area SmartPay                             FF-AR-09-001
 Purchase Card Program



Purchase Procedures Need Improvement

A cardholder and approving official did not follow proper purchasing procedures and
exceeded the single transaction dollar limit of $10,000 by $3,481. A credit cardholder
should not exceed $10,000 in a single transaction.8 Management was aware of this
requirement; however, the initial eBuy request was for $9,300 and, due to unexpected
requirements, a management decision to modify the meeting within the same week
increased the cost to over $10,000. While this purchase was valid and authorized,
management was advised the vendor could override the bank control not to accept
purchases greater than $10,000 by processing transactions manually. When
employees do not make purchases in accordance with procurement policies, the Postal
Service has an increased risk of incurring unauthorized purchases or unnecessary
expenses.

We recommend the Vice President, Northeast Area Operations:

3. Reiterate the Postal Service policy to cardholders and approving officials not to
   exceed the single transaction limit of $10,000.

Management’s Comments

Management agreed with our findings, recommendations, and monetary and
non-monetary impacts and issued a memorandum dated October 6, 2008, to Northeast
Area executive staff and SmartPay cardholders reinforcing SmartPay Procedures. We
have included management’s comments, in their entirety, in Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to all three recommendations, and the corrective action should
resolve the issues in the report.




8
    Handbook AS 709, Section 182.1, Single Transaction Limit.




                                                          3
Fiscal Year 2008 Northeast Area SmartPay                            FF-AR-09-001
 Purchase Card Program


We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Kevin
Ellenberger, Director, Field Financial – East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:    Susan M. Brownell
       Lynn Malcolm
       Vincent H. DeVito, Jr.
       Susan A. Witt
       Stephen J. Nickerson
       Elizabeth A. Doell
       Daniel P. Pierce
       Katherine S. Banks




                                           4
Fiscal Year 2008 Northeast Area SmartPay                                          FF-AR-09-001
 Purchase Card Program


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Since November 1991, the Postal Service has used the government-wide Commercial
Credit Card Program administered by the General Services Administration. The current
contractor is U.S. Bank, Minneapolis, Minnesota, and the card company is VISA®. The
Postal Service calls the program the SmartPay Purchase Card Program and Supply
Management and Finance cosponsor it. The Postal Service pays no administrative fee
for the services U.S. Bank provides and earns refunds based on the aggregate volume
of Postal Service transactions. Until recently, the Postal Service referred to the
purchase card as the International Merchant Purchase Authorization Card (IMPAC).
This was a registered U.S. Bank trademark name, but the bank no longer uses it.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures set by the Postal Service in Handbook AS-709,
Credit Card Policies and Procedures for Local Buying, October 2003 (updated through
October 26, 2006); and various manuals, handbooks, management instructions, and
locally issued guidance. This guidance requires cardholders to maintain
documentation, including approved purchasing requests, sales and credit drafts and
receipts, and delivery documentation. In addition, guidance issued January 4, 2008,
requires cardholders to maintain documentation supporting the timely review of monthly
statements by cardholders and approving officials.9

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether SmartPay Purchase Card Program
purchases were supported and complied with Postal Service policies and procedures.
To accomplish this objective, we selected all transactions made from July 2007 through
June 2008 using the IMPAC-Report Builder from the Accounting Data Mart for the
Northeast Area’s finance number. This approach resulted in a universe of 599
SmartPay Purchase Card purchase transactions totaling $332,174. Our transactions
included only those cardholders assigned to the Northeast Area. Accordingly, we
sorted the data by cardholder and reviewed all 599 transactions made by
11 cardholders.

We conducted this financial audit from August through October 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
9
 Officer Memorandum of Policy, GSA SmartPay Purchase Card Reconciliation Process Cycle Time Change,
January 4, 2008.




                                                    5
   Fiscal Year 2008 Northeast Area SmartPay                                      FF-AR-09-001
    Purchase Card Program


   controls as we considered necessary under the circumstances. Those standards
   require that we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based on our audit
   objective. We believe that the evidence obtained provides a reasonable basis for our
   findings and conclusions based on our audit objective. We discussed our observations
   and conclusions with management on September 17, 2008, and included their
   comments where appropriate.

   We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
   Accounting Data Mart. We performed specific internal control and transaction tests on
   this system’s data to include tracing selected purchase transactions to supporting
   documentation. We used Postal Service instructions, manuals, policies, and
   procedures as criteria to evaluate internal controls and data reliability. Finally, we
   interviewed supervisors and employees and observed operations.

   PRIOR AUDIT COVERAGE

                                                Final                   Non-
                                               Report      Monetary   Monetary
       Report Title         Report Number       Date        Impact     Impact           Report Results
Fiscal Year 2008 Eastern     FF-AR-09-002     10/21/2008   $26,745     $9,826     Cardholders made
Area SmartPay Purchase                                                            purchases from unauthorized
Card Program                                                                      vendors, without
                                                                                  documenting the business
                                                                                  need for working meals or
                                                                                  providing supporting
                                                                                  receipts, and where eBuy
                                                                                  authority was improperly
                                                                                  delegated.
Fiscal Year 2008 Great       FF-AR-08-287     9/26/2008    $38,412    $37,808     Cardholders made
Lakes Area SmartPay                                                               purchases without
Purchase Card Program                                                             documenting the business
                                                                                  necessity for working meals
                                                                                  and cardholders and
                                                                                  approving officials did not
                                                                                  follow monthly reconciliation
                                                                                  procedures. Finally,
                                                                                  cardholders did not have a
                                                                                  completed SmartPay Credit
                                                                                  Card Program Cardholder
                                                                                  Accountability
                                                                                  Acknowledgment form on
                                                                                  file.
Fiscal Year 2008 Western     FF-AR-08-286     9/25/2008    $57,712      N/A       Cardholders made
Area SmartPay Purchase                                                            purchases without
Card Program                                                                      documenting the business
                                                                                  necessity for working meals
                                                                                  and made purchases from a
                                                                                  vendor not on the national
                                                                                  contract list.




                                                     6
   Fiscal Year 2008 Northeast Area SmartPay                                      FF-AR-09-001
    Purchase Card Program




Fiscal Year 2008 Pacific        FF-AR-08-281   9/12/2008   $20,215     $3,360     Cardholders did not always:
Area SmartPay Purchase                                                            document the business
Card Program                                                                      necessity for holding
                                                                                  separate working meetings
                                                                                  after normal business hours,
                                                                                  seek or receive tax
                                                                                  exemptions on purchases,
                                                                                  enter non-cash award
                                                                                  transactions into the
                                                                                  eAwards system.
                                                                                  Additionally, cardholders and
                                                                                  approving officials did not
                                                                                  follow monthly reconciliation
                                                                                  procedures.
Fiscal Year 2008 Southeast      FF-AR-08-279   9/8/2008      N/A        N/A       We did not identify any
Area SmartPay Purchase                                                            control and compliance
Card Program                                                                      issues with the Southeast
                                                                                  Area’s SmartPay Purchase
                                                                                  Card Program. Purchases
                                                                                  were made in accordance
                                                                                  with Postal Service
                                                                                  procurement policies.
Fiscal Year 2008 Capital        FF-AR-08-270   8/22/2008     N/A        N/A       Cardholders and approving
Metro Area SmartPay                                                               officials did not follow
Purchase Card Program                                                             monthly reconciliation
                                                                                  procedures.
Fiscal Year 2007 Financial      FF-AR-07-019   11/1/2007   $11,056      $0        Cardholders made 76
Installation Audit – SmartPay                                                     purchases totaling $31,435
Purchase Card Program –                                                           for unauthorized and
Pittsburgh District,                                                              unsupported purchases,
Pittsburgh, Pennsylvania                                                          telecommunication invoices
                                                                                  paid with the purchase card,
                                                                                  gift card purchases not
                                                                                  entered into eAwards, and
                                                                                  purchases where
                                                                                  cardholders provided
                                                                                  vendors with the Express
                                                                                  Mail corporate account
                                                                                  number and business meals.
SmartPay Purchase Card          FF-AR-07-014   9/29/2007   $127,393   $181,908    Cardholders did not prepare
Use by Postal Service                                                             or maintain proper
Officers                                                                          documentation for purchases
                                                                                  and did not obtain proper
                                                                                  approval for transactions.
                                                                                  Also, cardholders and
                                                                                  approving officials did not
                                                                                  follow monthly reconciliation
                                                                                  procedures.




   The reports identified various internal control and compliance issues, such as
   unsupported and unauthorized purchases. Further, as stated in the above table, we
   identified a common issue related to reconciliation procedures, which we also found in
   this audit.




                                                      7
Fiscal Year 2008 Northeast Area SmartPay                          FF-AR-09-001
 Purchase Card Program


      APPENDIX B: MONETARY AND NON-MONETARY IMPACTS SUMMARY

          Monetary Impact – Unrecoverable Unsupported Questioned Costs

 Number of Transactions                    Description              Amount
           27                        Meal purchases without         $36,263
                                     proper authorization or
                                      sufficient justification.




                      Non-Monetary Impact – Disbursements at Risk

 Number of Transactions                    Description              Amount
           1                        Purchase exceeded single        $13,481
                                      dollar transaction limit
                                            of $10,000.




                                                 8
Fiscal Year 2008 Northeast Area SmartPay                   FF-AR-09-001
 Purchase Card Program


                        APPENDIX C: MANGEMENT’S COMMENTS




                                           9
Fiscal Year 2008 Northeast Area SmartPay        FF-AR-09-001
 Purchase Card Program




                                           10
Fiscal Year 2008 Northeast Area SmartPay        FF-AR-09-001
 Purchase Card Program




                                           11
